<html>
<title> - FITNESS AND NUTRITION: THE PRESCRIPTION FOR HEALTHY AGING</title>
<body><pre>[Senate Hearing 108-42]
[From the U.S. Government Printing Office]


                                                         S. Hrg. 108-42
 
                         FITNESS AND NUTRITION:
                   THE PRESCRIPTION FOR HEALTHY AGING
=======================================================================

                                HEARING

                               before the

                       SPECIAL COMMITTEE ON AGING
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             WASHINGTON, DC

                               __________

                             MARCH 11, 2003

                               __________

                            Serial No. 108-6

         Printed for the use of the Special Committee on Aging




                       U. S. GOVERNMENT PRINTING OFFICE
87-354                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001











                       SPECIAL COMMITTEE ON AGING

                      LARRY CRAIG, Idaho, Chairman
RICHARD SHELBY, Alabama              JOHN B. BREAUX, Louisiana, Ranking 
SUSAN COLLINS, Maine                     Member
MIKE ENZI, Wyoming                   HARRY REID, Nevada
GORDON SMITH, Oregon                 HERB KOHL, Wisconsin
JAMES M. TALENT, Missouri            JAMES M. JEFFORDS, Vermont
PETER G. FITZGERALD, Illinois        RUSSELL D. FEINGOLD, Wisconsin
ORRIN G. HATCH, Utah                 RON WYDEN, Oregon
ELIZABETH DOLE, North Carolina       BLANCHE L. LINCOLN, Arkansas
TED STEVENS, Pennsylvania            EVAN BAYH, Indiana
RICK SANTORUM, Pennsylvania          THOMAS R. CARPER, Delaware
                                     DEBBIE STABENOW, Michigan
                      Lupe Wissel, Staff Director
             Michelle Easton, Ranking Member Staff Director

                                  (ii)




















                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Larry E. Craig......................     1
Statement of Senator John Breaux.................................    18
Statement of Senator Thomas Carper...............................    20

                                Panel I

Judith  A. Salerno, M.D., Deputy Director, National Institute on 
  Aging, Bethesda, MD............................................     2
Alfred Maguire, National Senior Games Association, Twin Falls, ID    10
Sam Ulano, Jazz Musician and Author, New York, NY................    14

                                Panel II

Linda Netterville, President, Meals on Wheels Association of 
  America, Lee's Summit, MO......................................    25
Jane V. White, Professor, Department of Family Medicine and 
  Graduate School of Medicine, University of Tennessee-Knoxville, 
  Knoxville, TN..................................................    35
Lynn C. Swann, Chairman, President's Council on Physical Fitness 
  and Sports, Sewickley, PA......................................    43

                                 (iii)























       FITNESS AND NUTRITION: THE PRESCRIPTION FOR HEALTHY AGING

                              ----------                              


                        TUESDAY, MARCH 11, 2003

                                       U.S. Senate,
                                Special Committee on Aging,
                                                    Washington, DC.
    The committee convened, pursuant to notice, at 10 a.m., in 
room SD-628, Dirksen Senate Office Building, Hon. Larry Craig 
(chairman of the committee) presiding.
    Present: Senators Craig, Stevens, Breaux, Talent, and 
Carper.

     OPENING STATEMENT OF SENATOR LARRY E. CRAIG, CHAIRMAN

    The Chairman. If we could have your attention, thank you 
very much. The U.S. Senate Special Committee on Aging will be 
convened. We want to thank all of you for coming this morning.
    Today's hearing will explore the importance of fitness and 
nutrition for older Americans. We are holding this hearing to 
highlight the need for all Americans over the age of 50 to be 
active, to focus on a nutritional diet, and to take advantage 
of a routine nutrition screening. Most importantly, all of 
these activities can be started at any age.
    This is a timely hearing because March marks the Meals on 
Wheels Association's March for Meals campaign. This is a 
national initiative carried out by local senior meals programs 
throughout the month of March. I have had the opportunity to 
travel with the Meals on Wheels program in my State and have 
not only seen the value of the food delivered, but the 
tremendous value of the outreach and the contact that goes on 
between the deliverer and the senior.
    I would like to welcome the members of the Meals on Wheels 
Association who are here today. How many of you are with that 
association and are in the audience?
    Thank you. Thank you for your work and thank you for being 
here.
    Many people think that physical decline is an inevitable 
consequence of aging. Today, we have assembled a panel of 
witnesses who will speak to the contrary. We will hear from 
witnesses who will talk about how becoming active at any age 
can actually help extend our lives and improve the quality of 
life. Today's witnesses will demonstrate that fact by living 
very active lifestyles well into their 70's and 80's.
    We also have nutrition experts who will discuss how simple 
eating habits and nutritional screening can help us live 
healthier lives and may also help reduce overall health care 
costs to this country.
    As Chairman of the Senate Special Committee on Aging, I 
welcome the opportunity to encourage all seniors to take better 
care of themselves. Our testimony will show that it is possible 
to live healthier, and have active lifestyles at any age.
    I will have to tell you a little story. I was filming a 
clip yesterday that will go on our website about the committee. 
The staff had written in my talking points that my father was 
in his 80's and played golf every day. My father is in his 
80's. He is 85. He doesn't play golf. We had to correct the 
script. He works 8 to 5 every day and hasn't missed work in his 
life except for a cold. He is fit and trim at 85 and can't 
understand why everybody is just sitting around. So I chuckled 
a bit, but it is a true statement and story and I think that it 
witnesses for me, at least, the active lifestyle that my 
parents have led well into their 80's because they eat well and 
they have remained very active and physically fit.
    We had planned our first witness to be Lynn Swann, who, as 
we know, was a famous Pittsburgh Steeler player, an ABC Sports 
broadcaster. He will be here. He is en route. Weather has held 
him out, so he will be here as one of our later panels.
    So we will feature a different panel at the first of our 
program, and that panel today is made up of Dr. Judith Salerno, 
Deputy Director of the National Institute on Aging; Alfred 
Maguire, a 77-year-old swimmer from Twin Falls, ID, with a 
remarkable story to tell you about, who competes in the Idaho 
Senior Games; and Sam Ulano, 82-years old, a jazz musician and 
author and still very active.
    In our third panel, we will have Linda Netterville, 
President of the Meals on Wheels for America, and Dr. Jane 
White, Professor of Family Medicine at the University of 
Tennessee-Knoxville.
    So we welcome all of you once again, and Doctor, why don't 
we start with your testimony this morning. Please pull the 
microphone as close as you can and have it comfortable and that 
way we can hear you all well. Again, welcome.

STATEMENT OF JUDITH A. SALERNO, M.D., DEPUTY DIRECTOR, NATIONAL 
                INSTITUTE ON AGING, BETHESDA, MD

    Dr. Salerno. Thank you. Thank you, Senator Craig, for 
inviting me to appear before you today to discuss fitness for 
people over 50, an issue of importance to us all. I am Judy 
Salerno, Deputy Director of the National Institute on Aging. I 
am delighted to be here this morning to tell you about our 
commitment to promoting exercise and healthy lifestyles across 
the lifespan.
    One year ago, I took up running and ran my first race, a 
half marathon, to honor the memory of my father, who had died 
of a stroke due to high blood pressure. I also ran the race to 
celebrate my 50th birthday. I had the good fortune to find a 
coach, running partner, and role model named Dixon Hemphill, 
who at 78 remains fit and active. I felt like Rocky Balboa when 
I crossed the finish line with my family and my coach cheering 
on the sidelines.
    The fact is, exercise and lifestyle changes are long-
distance goals which everyone over 50 can achieve. It is a 
matter of making a commitment. Exercise helps maintain healthy 
bones and joints. It also helps control weight and improves our 
mood and sense of well-being. It can strengthen all of our 
muscles, especially the very important one, the heart.
    NIA research continues to demonstrate the phenomenal 
benefits of physical activity. I would like to give you a few 
examples.
    Compared to their sedentary counterparts, older exercisers 
are not only more likely to live to an advanced age, but are 
more likely than non-exercisers to remain independent right up 
to the end of their life.
    A recent study showed that exercise and diet are effective 
in reducing the risk of Type II diabetes in high-risk older 
individuals by over 70 percent. This is important, since over 
seven million older Americans have diabetes, a serious and 
costly illness.
    Moderate exercise has been demonstrated to be an effective 
way to reduce stress, high blood pressure, and improve sleep 
among older women caring for family members with Alzheimer's 
disease. We have also found that older exercisers are able to 
fall asleep quickly, sleep for longer periods, and have better 
sleep quality after moderate exercise.
    Finally, exercise in conjunction with other common sense 
interventions was able to reduce falls in older people by 44 
percent. The intervention strategies cut health care costs for 
each of these high-risk individuals by $3,700, thus potentially 
saving millions of dollars in health care costs.
    Several years ago, NIA launched an exercise campaign to 
promote physical activity for the over-50 crowd. The message is 
simple. Through regular exercise, older adults can stay healthy 
and maintain independence. Our campaign addresses the four 
necessary types of exercise in a book called Exercise: The 
Guide from the National Institute on Aging, and in a companion 
video based on the book.
    First, endurance exercises, like walking rapidly, raise the 
heart rate and get the heart, lungs, and circulatory system 
working optimally.
    Strength exercises, such as leg lifts and arm raises, build 
muscles. Just a small increase muscle mass can reduce frailty, 
even in 90-year-olds.
    Balance exercises that build leg muscles can prevent falls, 
a major cause of broken hips and other injuries that often lead 
to significant disability.
    Flexibility or stretching exercises keep the whole body 
limber and improve range of motion.
    The NIA's exercise guide tells people over 50 how to begin 
a safe, effective exercise program. All the recommended 
exercises are based on evidence from research. To date, the NIA 
has distributed over half-a-million copies of the free guide, 
which is available in both Spanish and English. A free copy can 
be obtained by contacting the NIA Information Center through 
our website or by calling 1-800-222-2225.
    The bottom line is that exercise and good genes may 
ultimately be the wellspring of healthy older age. Even the 
oldest and frailest among us can improve health and 
independence by making physical activity a part of our everyday 
lives. The message for older Americans is clear. You are never 
too old and it is never too late to be fit for life.
    I would like to now share with you our television public 
service announcement which has been airing throughout the 
country which promotes exercises.
    [A videotape was shown.]
    It really makes you want to get up and move.
    The Chairman. Is that Sam's music? [Laughter.]
    Dr. Salerno. Our next one will be.
    The Chairman. All right.
    Dr. Salerno. Thank you very much, Senator.
    The Chairman. Judy, thank you very much for your testimony. 
I will find this book fascinating. I think it has the simple 
kinds of directions and guides that are understandable, usable, 
and appreciated.
    [The prepared statement of Dr. Salerno follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    The Chairman. I dare not call the gentleman who has just 
entered one of our senior Senators, although he is---- 
[Laughter.]
    Senator Ted Stevens of Alaska, who lives a very active 
lifestyle. Ted, do you have any opening comment before we 
continue with our witnesses?
    Senator Stevens. No. I just told a group, though, this is 
one committee I am a natural member of. [Laughter.]
    The Chairman. Well, that he is, and a very active one at 
that.
    Alfred, we will turn to you, Alfred Maguire of Twin Falls, 
ID, who has a remarkable story to tell us about aging and 
exercise.

STATEMENT OF ALFRED MAGUIRE, NATIONAL SENIOR GAMES ASSOCIATION, 
                         TWIN FALLS, ID

    Mr. Maguire. Senator Craig, panel members, distinguished 
visitors, ladies and gentlemen, I wish to thank you for the 
invitation to speak to you today. I am Al Maguire, a senior 
swimming athlete from Twin Falls, ID, who has participated in 
five National Senior Games, numerous State Senior Games, and 
many California Regional Games.
    I have a book written by a nutritionist, Dr. Michael 
Colgan, who relates that our bodies have muscles which are, in 
essence, the machines which move us anatomically. Protein is 
the food that builds these muscles around our limbs, but our 
muscle machines can't work without fuel. Carbohydrates are that 
fuel. The bigger the muscle is, the more the available fuel 
capacity.
    There is another kind of food called fat. There are good 
fats and bad fats. An athlete needs only the essential fatty 
acids. Saturated fats should be eliminated from your diet.
    Make a clear distinction between nutrients that are 
building materials and nutrients that are fuel. Proteins, 
vitamins, minerals, and essential fats are predominately 
building materials. They are used long-term to grow a better 
body. All carbohydrates are predominately fuel and are critical 
for any particular performance to succeed.
    Then comes exercise, you know, that which moves those 
muscle machines, that moves those lubricated limbs, that keeps 
all those neurotransmitters electrically and biochemically 
connected, and that facilitates the removal of waste toxins and 
the input of good nutrition for maintenance and continuance of 
energy.
    During one of the National Senior Games, I became impressed 
with some of the 90-year-old senior athletes who were still 
doing whatever they could to be active. There was even a 98-
year-old blind athlete who swam long distances.
    In the Twin Falls area, there are over 800 people 60 to 94 
years of age within the city and in isolated locations who 
exercise three times a week for an hour by walking, resistance 
training, stretching, and who have in a 10-week period achieved 
dramatic results when put through the Fullerton, CA, Senior 
Fitness Test. These participants were tested for balance, lower 
body strength, upper body strength, flexibility, and 
cardiovascular endurance. The College of Southern Idaho and the 
city of Twin Falls provides these events which have great 
social interactivity under the personal care of the event's 
pioneer, Jan Mittleider.
    Now, according to William Evans, who wrote ``Bio Markers,'' 
seniors who remain independent and are able to care for 
themselves at home just 1 month longer save the government 
millions. It would seem reasonable to conclude that prevention, 
therefore, is less costly than disability treatment.
    Fortunately for me, the existence of the Idaho State Senior 
Games  and its sponsors, along with the National Senior Games 
Association, the NSGA, have helped me with the availability of 
accessible competition. I do remember back in 1948 when the 
World Olympics were activated again after World War II that it 
was very difficult for myself as an individual to even try out 
in any preliminaries. In 1993, because there was Senior Game 
help, when I began my first Senior Game competition, 
opportunity was made very accessible and I was helped to 
overcome my fears and to continue with hope and courage.
    The National Senior Game Association now, fortunately, has 
made available quantities of opportunities for all of the 
10,000 men and women so that they may select any one of 18 
different sport venues in which they are able to exercise, 
train, and finally compete according to their own age group, 
with peers who travel from all the 50 States of the U.S., from 
archery to volleyball. I now personally thank them.
    I also thank you, Senator Craig, for giving me this 
opportunity to give my modest testimony. Thank you. I invite 
all committee members to attend the National Senior Games in 
Hampton Roads, VA, May 26 through June 9, and I do now also 
encourage all the committee members to get involved and support 
the National Senior Game Association, the NSGA, including the 
State Senior Games in Idaho. I would like to thank the Idaho 
Senior Games and the Special Committee on Aging for providing 
the transportation so that I might be with you today. Thank 
you.
    The Chairman. Well, I will thank you very much. Your 
testimony is marvelous and your presence here is living 
testimony. I see, looking at your resume, 43 gold medals, three 
national ribbons. That is an outstanding record. 
Congratulations.
    Mr. Maguire. Thank you.
    [The prepared statement of Mr. Maguire follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Now, the committee turns to Sam Ulano. Sam, I 
am looking at your resume and I find out that for 56 years, you 
have been a music professional, instructor, educator, author, 
and I see those drumsticks there. I assume that means you are a 
drummer of the first order.

 STATEMENT OF SAM ULANO, JAZZ MUSICIAN AND AUTHOR, NEW YORK, NY

    Mr. Ulano. I have been a drummer for 70 years, Senator, and 
I want to thank you for inviting me here to this interesting--
--
    The Chairman. Well, start pounding on the table. We are 
anxious to hear you. Thank you.
    Mr. Ulano. I brought this along to demonstrate a very 
interesting idea about staying in condition. I have been 
drumming with metal drumsticks for many years, which was 
considered a no-no by most of the people in the drum community 
for many, many years. They were saying you are going to get 
muscle bound, and there is no such thing as being muscle bound. 
What they are really saying is that you overtrain and you tire 
your muscles out and they have given it that name called muscle 
bound.
    But I have been practicing since I was 13 and I have found 
that by staying in shape [playing drumsticks and humming]--so 
these sticks, by the way, were made by my twin brother in 1946, 
but Louis Belson, the very famous drummer who was married to 
Pearl Bailey for many years, was the originator of inventing or 
creating the metal sticks. So the principle is that when you go 
to the lighter drumstick, your hands don't get faster, but they 
got stronger.
    So in 1960, I weighed 320 pounds. I think that was pretty 
heavy, I would say.
    The Chairman. How tall are you?
    Mr. Ulano. I am five-foot-seven.
    The Chairman. I would say you were pretty heavy. 
[Laughter.]
    Mr. Ulano. I wore a size 54 jacket and a 52 waist belt, and 
a student  of mine brought me over to a gentleman who was Mr. 
America in 1936, had a little gymnasium near where I teach 
drums, by the name of Sigmond Klein, and Sigmond Klein said 
something that was very interesting. He said ``Boy, you are a 
mess.'' I said, ``Well, what are we going to do about it?'' He 
says, ``What are we going to do about it?'' he says, ``What are 
you going to do about it?'' He says, ``I don't have to worry 
about it.'' He was in incredible condition.
    He said, ``How long did it take you to get out of shape?'' 
I said, ``About 25 years, after I got out of the Army.'' I was 
in the Army band, the 98th Division. We wound up in Hawaii and 
then ended up in Japan and came home. He said, ``Well, it took 
you 25 years to get out of shape, it's going to take you 25 
years to get back in shape.'' You know what? He was right.
    But his principle was weights, using light weights, 5-
pound, 10-pound, 20-pound weights, and doing a short routine of 
exercise every morning and at night before you go to bed, 
roughly 10 minutes a day, not this business about doing 2, 3 
hours. A lot of the reason people go to the gym--I am not 
knocking gyms, by the way--they like to be seen getting macho 
and maybe they are going to go on a beach. I am not going to go 
on a beach. I am going to be 83 on August 12 of this year.
    So what I am trying to say is that we have got to find a 
system. I tell all my students--I do some drum instruction--I 
say, ``What do you do in the beginning of the day?'' ``Well, I 
make coffee and then I''--I said, ``Well, I have a system.'' I 
get up, go to the bathroom, take a shower, put on some clothes, 
and then the day starts, and that is the system that happens 
Monday, Tuesday, Wednesday, Thursday, Friday, Saturday, Sunday, 
Monday, Tuesday, Wednesday. The whole year goes that way, and I 
have been doing that kind of a routine using light weights 
which I keep on my bed right next to me.
    When I wake up in the morning, I do my stretching exercise 
and I work on three parts of my body, my legs, my midriff, and 
my shoulders. Your arms are attached to your body. Your legs 
are attached to your body. You can't make your feet stronger. 
If you make your hips and your thighs stronger, everything down 
the line on to your feet are going to get stronger. On my arms, 
in order to play my instrument, I have to have strength in the 
shoulder [playing drumsticks and humming]. I still practice 3, 
4, 5 hours a day. It is like an athlete, if you don't stay in 
condition.
    So what I say to most people when we talk about this thing, 
you have got to do two things. One is find a system of 
lightweight exercise, not once every other day but 5 minutes a 
day, maybe in the mid-afternoon a day. Some people say, ``I 
don't have time to do it.'' Keep a set of weights under your 
desk. Your boss won't see you doing that. You pick them up 
while he is turning around, you do some exercise with them, put 
the weights back. Or you bring them into your bathroom and you 
have them there and you do some squats.
    I work on keeping my legs strong, because without your 
legs, you are nobody. Think about it. You can't go shopping, 
you can't go dancing, you can't play football. I don't care if 
you are young, old, or I don't think there is anything as 
getting old. I am going to be 83 and I don't consider myself 
old.
    The other part is learning how to eat. I love to eat a lot 
of things, but I have learned how to eat a pizza once a month, 
have a steak maybe once a month, eat some bread maybe once 
every 2, 3, 4 days, cut down on some of my excessive dairy 
food, and I wound up weighing 168 pounds.
    So I think the theory works. The resistance of putting the 
weights against your arms and your shoulders and your legs will 
make you stronger and people who--I live, by the way, in the 
senior citizen building and nobody does any exercise. They are 
lucky if they walk into the cafeteria to have breakfast.
    So that is what I have got to say about this and I think it 
is important that we find a system, how to stay in condition. 
And the condition that I use is with light weights. They are 
very inexpensive. I have got 5-pound, 10-pound, 15-pound 
weights, and I just went and got a set of 20-pound after 43 
years of doing this conditioning. I want to thank you for 
inviting me here to say my little piece about this. I think it 
is very important.
    The Chairman. Sam, thank you. That is outstanding 
testimony, and as I say, ``You are living proof, to come from 
300 pounds down to your current weight, and your health 
condition by all appearances is excellent, and I congratulate 
you for that.'' As I said to Al, I say to you, your testimony 
is living testimony that you can age well and----
    Mr. Ulano. Do you remember Packard Auto, Senator? I didn't 
mean to interrupt you. They used to have this slogan, Packard 
cars. ``Ask a man who owns one and he will tell you.'' That was 
their slogan and it is a very true slogan.
    The Chairman. All right.
    Mr. Ulano. If you want to find out how to do this, you have 
got to find somebody who can teach you how to do it.
    The Chairman. Well, that is true.
    Mr. Ulano. You go and pick up a 100-pound weight and you 
didn't stay in condition, you are going to bang your back out. 
You are out of condition.
    The Chairman. Sam, thank you.
    [The prepared statement of Mr. Ulano follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. We have been joined by the ranking member of 
the committee, John Breaux. John, do you have any comments or 
questions?

                STATEMENT OF SENATOR JOHN BREAUX

    Senator Breaux. Just briefly to thank you, Mr. Chairman, 
for calling this hearing today. It is very, very clear that 
exercise among all Americans is really the key to a healthy 
society. Five percent of all of our Medicare beneficiaries 
consume about 50 percent of the total amount of money spent in 
the Medicare program. It is being spent by 5 percent of our 
citizens.
    I think, clearly, exercise and proper nutrition are the 
major ingredients in preventative medicine which will allow 
people to live not only longer lives, but certainly better 
lives, and I am very glad that we are using this hearing to 
emphasize the importance of rational and balanced exercise as 
part of our regular health programs in this country.
    Thank you, Mr. Chairman.
    The Chairman. John, thank you very much.
    Let me turn to our colleague from Missouri, Jim Talent. 
Senator Talent, do you have any opening comments?
    Senator Talent. I think I will reserve, Mr. Chairman, for 
the next panel.
    The Chairman. Well, thank you.
    Doctor, in your testimony, you mentioned that family 
caregivers are at a risk of increased rates of depression, 
serious illness, and mortality. Are you aware of any outreach 
efforts for family caregivers to provide some type of respite?
    Dr. Salerno. Well, NIA is a research organization and we 
don't provide direct care. We make a considerable effort to 
provide information with particular emphasis through our 
Alzheimer's disease education and research and referral centers 
to family caregivers. We have a caregiver kit which provides a 
lot of resources and also gives information on exercise, 
because exercise has been demonstrated to improve the health 
and well-being of caregivers. We have lots of connections to 
other organizations through our website, lots of links which 
help caregivers get the support they need in their local 
communities. We get thousands of calls each month to our 
hotline, and mostly from family caregivers.
    The Chairman. Al, you became active again at, what, age 60?
    Mr. Maguire. Sixty-four.
    The Chairman. With that experience, the obvious experience 
you have had now into your 70's, can you offer any suggestions 
of how we better inform seniors of the health benefits of 
becoming active, physically active, I guess is the question?
    Mr. Maguire. One of the things that I discovered was that 
every 7 years, the body changes. Almost every molecule in the 
body just revolves around and it is brand new. In about 1991--
when I was 64 years of age, I determined that this body that 
you see before you right now is going to be a new body and it 
has taken me some time to do it, but it was a slow process. I 
had to learn how to eat correctly and to sleep correctly and to 
exercise moderately to get everything going.
    One of the things that you mentioned now was how to get 
other people to do it, and that is that if you have 
accessibility, if they are able to get out amongst themselves, 
to get out amongst a group and walk. As an example, in Twin 
Falls, we have 200 people that walk around a gym three times a 
week, Monday, Wednesday, and Friday, and during that time, they 
exercise and do all sorts of things. Since they are doing it 
together, they enjoy it, and by the time 10 weeks goes by, they 
have increased their--everything about their body.
    The Chairman. In other words, involving yourself in a group 
or getting somebody involved in an active group.
    Mr. Maguire. Right. Right.
    The Chairman. Is a greater motivator.
    Mr. Maguire. Right, and the more that you do that, the more 
the body feels great. In fact, as you are feeling better, your 
body says, ``Gee, I like this and I want to do more.''
    Since I am speaking right now, I want to say hello to 
Senator Breaux. I did hear you in 1993 at the Senior Games and 
I was very impressed with your thoughts.
    The Chairman. Thank you, Al.
    Sam, you are 82. You have obviously continued to teach 
music. You play in your band. You have stayed active. You live 
in a senior community or a senior environment where there is 
inactiveness. How do you stay motivated to be active?
    Mr. Ulano. Well, that is a good question. I am a big 
believer that we have to learn how to motivate ourselves, 
Senator. If you don't do that yourself, you could be told all 
day long how to stay in shape, you can go and watch people do 
it, but somewhere inside yourself, you have got to say, ``Hey, 
I am a mess.'' I am getting older and I had better find some 
way that I can get my legs stronger because eventually I won't 
be able to go out dancing and I won't be able to play with my 
grandchildren and I will wind up in a wheelchair if I don't 
find some way to put some resistance against these muscles.
    I found a very inexpensive way to do it, and I was taught 
that by Sigmond Klein. He was a very dear friend of mine. He 
says, go out and buy a 5-pound set of weights, 10-pound, 20-
pound, and they are very inexpensive. I keep them under my bed. 
I have a set in my practice studio. I will come in and I will 
do maybe ten lifts, I will do ten stretching. I do a bicycle 
ride by laying flat on my back. I do 20 squats. I go to the 
men's room. I grab hold of the sink and do another 10, 15. So I 
am always constantly putting a resistance against the muscles.
    So now when I want to play my instrument, I can get up at 
any time of the night. I was up this morning at 3:30 to get 
ready to come here from New York and I did about 20 minutes of 
what I call drum exercise, lifted the weights for about another 
5 minutes. I didn't have to do an hour. I didn't have to do 2 
hours. People think you have to do a lot of it.
    You can do it right in your home. It is nice if you can do 
it with groups, but a lot of us don't have the time to go with 
a group. We have a day job. We have got maybe children or 
grandchildren or family or whatever. We have other things that 
have to be done. So you have them in your apartment. I hold on 
to my door and I kick my legs for about 50 counts, making my 
knees and my thighs and my hips and I stay strong, and it can 
be done. So I think we have to motivate ourselves with 
moderation.
    The Chairman. That is well spoken. Thank you.
    Mr. Ulano. Yes.
    The Chairman. We have been joined by another one of our 
colleagues, Senator Tom Carper. Do you have an opening comment?

               STATEMENT OF SENATOR THOMAS CARPER

    Senator Carper. I am really tempted to just jump in, 
because I am a guy who believes in fitness. I work out almost 
every day. I ran five miles this morning about 5:30 in 
Delaware. On Sunday, I was visiting my mom----
    The Chairman. You ran from Delaware to here?
    Senator Carper. I could have. [Laughter.]
    The Chairman. It is faster than the Metroliner, yes.
    Senator Carper. Last night, it would have been. [Laughter.]
    I am getting ready to run my 21st Caesar Rodney half 
marathon this Sunday for 13.1 miles. I am one of those people 
who believes that we run or we exercise daily and it not only 
is good for our body, it is good for our mind. People used to 
talk about runner's high, and there is really something that 
happens physiologically in our brains when we exercise 
rigorously and it helps us in so many different ways. You are 
all an inspiration. We welcome you coming here today, setting a 
good example.
    I just wonder, Mr. Ulano, what your neighbors thought at 
3:30 this morning when you started your drum exercise. 
[Laughter.]
    Mr. Ulano. I have a question. Can I ask a question?
    The Chairman. Can you ask a question?
    Mr. Ulano. Can I ask a question?
    The Chairman. Sure.
    Mr. Ulano. I saw an article in the local newspaper in New 
York that some doctor said that if the mind is kept active, you 
stand less of a chance of getting Alzheimer's, so I am 
wondering, is there any kind of a survey they have done on 
that, some kind of way that they came to that conclusion?
    The Chairman. I have heard that said on numerous occasions 
and there is research being done now. I don't know of a survey 
per se that indicates that, but I understand, Sam, there is 
considerable research now that the more active you keep the 
mind, the less likely the onset of Alzheimer's.
    Senator Carper. Can I take a quick shot at that?
    The Chairman. Yes.
    Senator Stevens. There is a book, Sam, written by David 
Mahoney, ``How to Live to Be 100.'' He was a resident of your 
city. You ought to get David Mahoney's book. He is part of the 
group of the Decade of the Brain, and there is a lot of 
information about what you asked. It is available.
    Mr. Ulano. I have a sister, Ida, who was 95 3 weeks ago. We 
went to her 95th birthday party. She just finished writing her 
memoirs, typed it all out, and it is amazing what she does. She 
goes shopping, cleans her own apartment. She says, ``Don't 
bother me. Leave me alone. I do my own thing.'' Ninety-five 
years old.
    The Chairman. Senator Carper.
    Senator Carper. This is subtitled, ``The First Part''? Is 
this just the first part of her memoirs? Has she got some more 
to go?
    You asked a question about Alzheimer's. There was an 
interesting study done in Europe, fairly large scale, about a 
year ago. The results were released about a year ago, and the 
study was not on Alzheimer's but it was on depression. They 
took a large group of people, divided them into three 
categories. A third of the folks exercised strenuously 
regularly about 30 minutes a day, I think 5 days a week. The 
second group took a medicine that is designed to control 
depression. The third group was given a placebo, sugar pill, or 
something like that.
    Then after an extended period of time, they measured and 
kept track of whose depression was reduced the most. The people 
who took the placebo, no. The people who took the medicine for 
depression, no. The people who exercised regularly had the most 
improvement on their depression.
    The Chairman. Thank you. Any further questions of this 
panel? Yes, Senator Breaux?
    Senator Breaux. Just briefly. Mr. Maguire, I am sorry I 
missed your testimony, but I am very pleased to see that you 
reference your participation, I think as a swimmer, in the 
National Senior Games.
    Mr. Maguire. Correct.
    Senator Breaux. I have attended the Games in Orlando and 
Baton Rouge, and I hope to go to the Games this May in 
Virginia. I think the Games are an incredible opportunity for 
the Nation to witness the activity of seniors participating in 
competitive sports. I think they are absolutely wonderful. I 
just wish we could entice some of the major corporations in the 
country to participate as sponsors since the Games struggle 
financially.
    I met with AARP just this past week and they are getting 
ready to engage in a massive new effort to try and get seniors 
to be more active through exercise. There is no better example 
of seniors doing that than their participating in the National 
Senior Games. If there is anyone out there who is interested in 
seniors and selling products to seniors and encouraging 
seniors' exercise programs, the National Senior Games, I think, 
is a wonderful venue to get that message out.
    I realize, everybody cannot run the 100-meter dash, but 
maybe they can walk the 100 meters, and they can't throw a 16-
pound shot put but they can throw a baseball. But they are 
active, they are competing with people in their own age 
category and I just think it is a wonderful signal to other 
seniors.
    We talk about our youngsters sitting in front of 
televisions and computers and not getting off their you know 
what. Well, it is also important for seniors to get out of the 
recliner and to do whatever they can, because it is going to 
mean a lot to them and their children and their grandchildren 
as they get older, and the National Senior Games is incredibly 
important as an inspirational message to seniors and to all 
Americans to participate in exercise. So I just congratulate 
you for being here and telling us that story.
    Ms. Salerno, on the question of the importance of exercise, 
I mean, this is real. This is real in terms of health care 
spending, quality of life, the last 6 months of a person's 
life. People who have chronic diseases in this country like 
diabetes, I mean, all of that is brought on to a greater extent 
because of lack of exercise, being overweight, living a sedate 
lifestyle as opposed to an active lifestyle is all very, very 
important.
    I think it is also important to tell seniors that if you 
have never done anything in your life in terms of exercise, you 
can't just jump into this when you are 80 years old and all of 
a sudden I am going to start working out five times a week or 
running with Senator Carper five miles a day every day. I mean, 
they have to take this upon themselves gradually and not try to 
do it all at one time and I think that is very, very important, 
as well.
    I can't think of anything else I would like to say about 
it. I don't have any questions. I agree with what you are 
saying. This is important from a health standpoint. This is 
just as important as anything else we recommend Americans to do 
in terms of managing their health care. Managing your health 
care is much more than taking prescription drugs. It is much 
more than a yearly checkup at your doctor. I mean, you go to 
the doctor once a year and they tell you what you should have 
been doing for the previous year, whereas a regular exercise 
program saves money and it makes the lifestyle of our seniors 
much better as well as much longer. So I thank all of you for 
what you are doing.
    Mr. Maguire. Could I add one little thing? One of the 
things that I mentioned before, Senator Breaux, you came in was 
that there are 18 opportunities for seniors to be involved, 18 
different types of things, from volleyball, anything that you 
can think of. In fact, in 1993, when I was in Baton Rouge, 
there was a man who was in his middle-90's and he was so happy 
because he threw horseshoes or something like that and he was 
beaming all over.
    I also would like to add something that was sort of 
mentioned in here, was by exercising, you actually get rid of 
the toxins in your body, all sorts of toxins which can cause 
all sorts of disabilities, and it also then increases things so 
that you can also continue on and get new nutrients in.
    Senator Breaux. I remember meeting one of the gentlemen in 
Baton Rouge who was in his upper 90's who won the javelin 
throwing context who was from the State of Hawaii and he was 
just a remarkable athlete. I would just mention, I probably 
shouldn't, but both in the Orlando Games and the Baton Rouge 
Senior Games, Ted, I challenged the winner of the Senior tennis 
event to play because I thought it would be a lot of fun and 
also to bring about more attention to the program, and I can 
report that both in Orlando and in Louisiana at the Senior 
Games, I lost both times to the person who had won the tennis 
event. [Laughter.]
    But it just shows you how competitive they can be, but 
also, I mean, just being with your colleagues in your same age 
division doing this, it is just a wonderful social outlet that 
is very, very important, as well. So thank you.
    The Chairman. John, thank you for those questions and that 
testimony.
    Senator Stevens. Mr. Chairman.
    The Chairman. Yes, Senator Stevens?
    Senator Stevens. Sam, you give me a copy of your book and I 
will mail you a copy of David's book, OK?
    The Chairman. Did you hear that, Sam? Senator Stevens would 
like a copy of your book and then he will mail you a copy of 
David's book.
    Mr. Ulano. Here it is.
    The Chairman. Here it comes. You have got to sign it, 
though.
    Mr. Ulano. I will sign it.
    The Chairman. Senator Talent.
    Senator Talent. I didn't have an opening statement, but I 
did have a question I wanted to ask. Maybe I ought to direct 
this at Ms. Salerno. My father just passed away last November 
at 91 years of age and one thing I learned as Dad grew older 
was it was harder and harder to make him do anything he didn't 
want to do, and we can't make seniors exercise and probably 
wouldn't want our government to try actually to do that.
    But what I do think works is if we send the message from 
all different directions to them, and a key, it seems to me, is 
through the various programs that seniors are already 
participating in. Now, there is this huge network. Some of 
these are public and some of them are private out there. We are 
going to have testimony on the next panel from the lady who is 
the President of the Meals on Wheels Association. There are 
senior centers, day care centers, and the whole spectrum of 
independent living centers, retirement centers, et cetera.
    I am wondering, is there some way that we could encourage 
all those groups to send a message for a concentrated period of 
time about the importance of exercise? Do you see what I am 
getting at, so that the seniors around the country are hearing 
this from a lot of different places for several weeks at a 
time.
    I remember when I was in the legislature and we first 
started passing the mandatory seat belt laws, I always thought 
that the publicity attendant to the passage of the law helped 
as much as the law did, in convincing people. Do you have any 
suggestions along those lines?
    Dr. Salerno. Yes. I think that you are absolutely right. It 
has to be a multi-pronged approach. That is why we are on 
radio, we are on TV. We are trying to get our exercise 
materials into public libraries. We are distributing to 250 
community health centers around the country so that the message 
gets out there.
    But also, I think that it is important to have an exercise 
buddy, and that really makes a difference for most people, 
because some mornings I know I get up and I really don't feel 
like putting on my running clothes and getting out there and 
doing a few miles. But when I get my son to go with me, who is 
sitting behind me, he motivates me. We motivate each other. So 
it is that kind of thing that I think is very important, and 
there is a natural group in senior centers, through all kinds 
of networks, assisted living facilities, where people can do 
that.
    We are also interested in having our materials be part of 
the program that we can provide as a public service to groups 
such as those who run activities in senior facilities.
    Senator Talent. Thank you, Mr. Chairman.
    The Chairman. Thank you. We thank all of the panelists.
    Judy, I saw that young man wave back there. You brought 
some of your family with you?
    Dr. Salerno. Yes, my three children.
    The Chairman. Why don't you introduce them.
    Dr. Salerno. Lauren Guberman, Alyssa Guberman, and Michael 
Guberman, and please don't tell their teachers they are here. 
[Laughter.]
    The Chairman. No, quite the opposite. They should go back 
and tell their teachers that they attended a Congressional 
hearing today.
    Dr. Salerno. Absolutely.
    The Chairman. They can get credit for it.
    Dr. Salerno. Absolutely.
    Senator Talent. Judy, this is on C-SPAN. I am afraid it is 
a little bit too late. [Laughter.]
    The Chairman. Prior to you coming in, Senator Talent, Judy 
did talk about this document and also showed a public service 
announcement encouraging access to this, so that is a part of 
the outreach that the Institute is undertaking.
    Thank you very much, all of you. We appreciate you being 
here. Thank you.
    The Chairman. Let us turn to our second panel. We would 
excuse you. Thank you. We trust that Mr. Swann is still en 
route. Do we have any report on Lynn yet?
    We have two in our next panel, and I think that Senator 
Talent had already mentioned one of them, so I will allow the 
Senator to introduce that panelist when we get them seated.
    As I mentioned, March marks the Meals on Wheels 
Association's ``March for Meals'' campaign, and so this next 
panel in part will be discussing nutrition and certainly Meals 
on Wheels. Senator, would you introduce our first panelist, 
please?
    Senator Talent. That would be a privilege, Mr. Chairman. We 
are honored in Missouri to have living in Lee's Summit, MO, the 
President of the Board of Directors of the Meals on Wheels 
Association. She is Linda Netterville. That is the oldest and 
largest national association representing senior meal programs. 
Linda serves not only in that capacity, but as the Nutrition 
Program Manager with the Johnson County Nutrition Program in 
Olathe, KS.
    She has enjoyed a number of professional appointments 
through her career. She really has a long and distinguished 
career in helping seniors, Mr. Chairman. I am not going to 
mention them all, but among them are the National USDA 
Commodity Food Distribution Advisory Council and she has been 
on the National Elder Care Institute on Nutrition, the Advisory 
Committee. Above and beyond all that, she is a graduate of the 
University of Missouri, and so I thank you for the opportunity 
to introduce her today, Mr. Chairman. Thank you for being with 
us, Linda.
    Ms. Netterville. Thank you, Senator.
    The Chairman. Well, Linda, we thank you very much for being 
with us.
    Our second panelist will be Jane White, Professor, 
Department of Family Medicine, Graduate School of Medicine, 
University of Tennessee-Knoxville, in Knoxville, TN, so we 
welcome this panel. Thank you very much, Doctor.
    Linda, if you would start, please.

  STATEMENT OF LINDA NETTERVILLE, PRESIDENT, MEALS ON WHEELS 
            ASSOCIATION OF AMERICA, LEE'S SUMMIT, MO

    Ms. Netterville. Thank you. Chairman Craig, Senator Breaux, 
and members of the committee, I am Linda Netterville, President 
of the Meals On Wheels Association of America for whom I am 
testifying today.
    The Meals On Wheels Association of America, or MOWAA, as we 
call our organization, represents senior meal programs from 
every State. Our members provide nutrition services to older 
Americans to improve their dietary intakes, nutrition and 
health education; links to informal and formal community 
support; and opportunities for active living. I am joined here 
in the audience by the Board of Directors of MOWAA. We, on 
behalf of MOWAA member programs from across the country, thank 
you for holding this hearing and giving us the opportunity to 
testify.
    Before I begin to address the issue of the role of 
nutrition in healthy aging, I want to briefly note a couple of 
important milestones. Later this month, we will commemorate the 
31st anniversary of the inclusion of senior meal programs in 
the Older Americans Act, a Congressional action that has 
literally changed the lives for the better of millions of 
Americans over the years. To date, over six billion meals have 
been served through the Act and senior meal programs are adding 
to that total every day.
    As part of their commemoration of this, senior meal 
programs in communities throughout the country will be 
participating in MOWAA's ``March For Meals'' campaign, as you 
mentioned. ``March For Meals'' is a national initiative carried 
out individually by local senior meal programs throughout the 
month of March. The campaign is designed to raise public 
awareness about our senior programs and the need for meals, to 
raise funds to enable the provision of services locally to meet 
those needs, and then most important, to recruit volunteers to 
assist in the delivery of services so that no senior goes 
hungry.
    I know that this is quite familiar to you, Senator Craig 
and Senator Breaux, as Chairmen of the Honorary Congressional 
Advisory Committee and as Senators who helped kick this off 
last year here in Washington at a press conference with race 
car drivers A.J. and Larry Foyt. But some of your colleagues, 
particularly those new to the Senate, might not be aware of 
your leadership and involvement in the Meals on Wheels behalf. 
So remembering that anniversary, we want to thank you again 
publicly and encourage your colleagues to get involved, as 
well.
    ``March For Meals'' is just another way that MOWAA is 
helping individual meal programs enhance public-private 
partnerships that are essential to their past and current 
success, as well as to the future growth of the senior meal 
program.
    Senior meal programs, some over 4,000 across America, are 
as diverse as the communities in which they operate and the 
seniors that they serve. They are urban and suburban and rural. 
They furnish congregate meals in places like senior centers and 
community centers. Others provide home-delivered meals, and 
still others provide both the congregate and the home-delivered 
meals. Some programs are small serving 30 meals a day, while 
others serve as many as 3,000 meals a day.
    But all programs share one commitment, and that commitment 
is the regular provision of healthy, nutritious meals to 
America's seniors who need them. By doing so, all of these 
programs are important partners, ``senior partners'' as we call 
them with President Bush and Lynn Swann in their efforts to 
promote a healthier lifestyle in the Healthier U.S. Initiative: 
The Healthier U.S. Initiative identifies four components, first 
of all, being physically active every day; eating a nutritious 
diet; getting preventive screening; and making healthy choices 
and avoiding risky behaviors.
    It will not surprise you when I tell you that MOWAA would 
like to reverse that order and put a nutritious diet first. 
That is precisely what our programs endeavor to do to put 
healthy nutrition first in the lives of seniors. There is no 
question that scientific evidence supports the relationship 
between good nutrition, health, and functionality among our 
older adults.
    The majority of our MOWAA member organizations provide 
nutrition services under the Older Americans Act. Under the 
Act, meals served must provide one-third of the recommended 
dietary allowances, or the RDA, established by the Food and 
Nutrition Board of the National Academy of Sciences National 
Research Council. The meal must also follow the dietary 
guidelines for Americans, which encourage healthy eating habits 
and physical activity as a part of life.
    Although one-third of the RDA is the minimum requirement 
for our meals, most of our meals contain 40 to 50 percent of 
the daily nutrients needed by older adults. In addition, the 
meals provide more than half of many recipients' total meal 
intake for the day. So our outcome is two-fold. By providing a 
nutritious meal, we address both malnutrition and hunger.
    Our programs also encourage physical activity. Congregate 
programs provide important opportunities to engage in community 
life. They offer--in addition to the meal--a variety of other 
programs, including exercise. Home-delivered meal programs make 
it possible for many home-bound older adults to continue to 
live in their homes and thereby maintain some level of physical 
activity. I am referring to just moving from room to room, 
interacting with their pets, eight gardening, watering plants, 
caring for their home, and remaining active in their community. 
I believe that all panelists would agree to me that every 
movement counts.
    Meal programs also direct seniors to other key 
recommendations of the Healthier U.S. Initiative, namely the 
preventative screening and making healthy choices. Meals are 
not the only thing provided by senior meal programs. Programs 
conduct a nutrition screening at the intake. A simple 
``determine your nutritional health'' checklist identifies 
warning signs of poor nutritional health and assigns 
appropriate nutrition interventions. Nutrition programs also 
provide nutrition education, which stresses the importance of 
nutrition and health. It equips older adults with the knowledge 
they need to make healthy food choices on their own.
    For some older adults, general nutrition education may not 
be enough, and for then, many programs employ a dietitian to 
provide individual nutrition counseling to translate a person's 
nutritional needs into better personalized food choices. These 
healthy choices can have a measurable effect on health status.
    I would also like to elaborate on just two benefits from 
the home-delivered meal program. Home-delivered meal programs 
address two distinct populations: the frail in need of long-
term support and also those in need of short-term intervention.
    The first group I believe most generally comes to mind when 
we talk about home-delivered meals, because the Older Americans 
Act targets its limited services to those in greatest economic 
and greatest social need with an emphasis on low-income 
population. This long-term needs group is the one that is most 
likely to be served by our programs, and that is the way it 
should be.
    But the other group, those with short-term needs, merit 
attention, as well. The last national survey, conducted almost 
a decade ago, found that 41 percent of all home-delivered meal 
programs have waiting lists. The median time on these waiting 
lists is 1 month, with some programs having wait times as long 
as 3 months. As a result, particularly in some areas, those in 
need of short-term intervention may go unserved. The group may 
be comprised of individuals who are recently hospital 
discharged, for example, or recovering from an acute illness, 
or have a short-term mobility impairment, say from a broken 
bone. Without access to community-based services, they may have 
to be institutionalized further or return home to fend for 
themselves. Regrettably, that can result in deterioration of 
nutrition and health status and, in turn, can result in re-
hospitalization.
    MOWAA believes that this is an unnecessary cost in both 
human and financial terms. Our programs can feed an individual 
for a year for the approximate cost of a one-day Medicare 
hospital stay. Whether or not the worst-case scenario occurs, 
the lack of service does not contribute positively to our 
shared goal of promoting healthy aging.
    The Chairman. Linda, if we could have you start wrapping up 
now, please.
    Ms. Netterville. OK.
    The Chairman. Your full statement will be a part of the 
record.
    Ms. Netterville. OK. Actually, we are almost done.
    The Chairman. All right.
    Ms. Netterville. We come before you to show how important 
nutrition is to the nation's elderly and to our seniors, and 
the fact that you have convened these witnesses here today 
demonstrates once again your concern and support of America's 
seniors. We thank you for focusing on these important issues. 
Senior nutrition programs are a lifeline for millions of 
Americans.
    Thank you very much. This concludes my oral testimony and 
the written testimony is submitted.
    The Chairman. Linda, thank you very much for that very 
valuable testimony on the importance of senior nutrition.
    [The prepared statement of Ms. Netterville follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Now, I am turning to Dr. White. I would be 
remiss for two reasons if I did not mention not only is she a 
tenured professor at the Department of Family Medicine at the 
University of Tennessee, but as Jane knows, I am married to a 
dietitian. Dr. White is the recent Past President of the 
American Dietetic Association and currently serves on ADA's 
Foundation Board of Directors. So, Jane, welcome before the 
committee.

  STATEMENT OF JANE V. WHITE, PROFESSOR, DEPARTMENT OF FAMILY 
    MEDICINE AND GRADUATE SCHOOL OF MEDICINE, UNIVERSITY OF 
               TENNESSEE-KNOXVILLE, KNOXVILLE, TN

    Ms. White. Thank you so much, Chairman Craig, Senator 
Breaux, and distinguished committee members. I appreciate the 
opportunity to discuss nutrition and its relationship to 
healthy aging.
    America is getting older. More than 35 million Americans 
will turn 65 during the next 30 years. Older Americans are 
increasingly seeking lifestyle improvements to maintain health. 
Eight out of ten older Americans have one chronic disease, and 
half of them have two or more. Eighty-eight percent of Medicare 
spending is for beneficiaries with three or more chronic 
conditions.
    I am a professor of family medicine at the University of 
Tennessee in Knoxville and a registered dietitian. I am 
technical advisor to the Nutrition Screening Initiative, or 
NSI, a health care coalition led by the American Dietetic 
Association and the American Academy of Family Physicians. NSI 
promotes routine nutrition care for older adults to prevent and 
manage chronic disease. Mr. Chairman, NSI was founded because 
the efficacy of nutrition intervention is one of the best-kept 
secrets in town.
    Chronic disease affects people of all ages. I expect many 
otherwise healthy members of the Senate and many of your 
constituents at home have a condition, a diet-related condition 
that they are working to manage, such as high cholesterol or 
high blood pressure. Hypertension affects one out of three 
people aged 70 years and older, while roughly one in ten have 
diabetes and one in four has coronary heart disease.
    Nine out of ten people with a chronic disease have a 
condition that could be improved with nutrition intervention. 
Through my work with older adults and physicians, I have seen 
the critical role nutrition plays in maintaining the health of 
adults as they age. I have submitted a patient case study 
attached to my testimony.
    Nutrition intervention is supported by substantial 
scientific evidence. The Institute of Medicine reported that 
there are proven nutrition strategies for managing 
cardiovascular disease, diabetes, and renal failure. These 
measures are cost-effective, leading to a reduced number of 
hospitalizations, reduced length of hospital stay, and fewer 
physician office visits.
    Medical nutrition therapy, or MNT, offers economic 
advantage to individuals as well as to the nation's health care 
industry and to our economy in general. Chronic disease costs 
our country $300 billion annually, one-third of the U.S. health 
care expenditures. Ninety-nine percent of all Medicare spending 
is being used to treat chronic illness. Prescription drug costs 
are rising and patient drug use is skyrocketing. The number of 
older adults taking eight or more drugs per day has increased 
50 percent in the last 3 years.
    The American Diabetes Association reported recently that 
costs associated with diabetes have doubled in the last 5 
years. The annual cost per patient with diabetes is more than 
$13,000, compared to $2,500 for individuals without this 
disease. Changes in diet and regular exercise can reduce the 
risk of developing diabetes in older people by up to 71 
percent.
    Further, nutrition strategies offer a cost-effective 
treatment alternative to prescription drug therapy. For 
example, it is estimated that nutrition intervention could save 
anywhere from $52 to $168 million for older adults with high 
blood pressure and $132 to $330 million for those with 
diabetes.
    However, physicians seldom discuss nutrition with patients. 
Doctors say they lack the time, knowledge, and tools to provide 
this information. At the same time, 85 percent of older 
patients want nutrition information from their physicians, but 
only 36 percent report that their doctor emphasizes nutrition 
during office visits.
    The clear need for practical tools for both physicians and 
consumers led NSI to develop the ``Physician's Nutrition Guide 
to Chronic Disease Management for Older Adults.'' This brief 
synopsis includes specific nutrition information on eight 
chronic diseases. The patient education materials include 
nutrition tips on each disease that can be tailored for the 
individual in the physician's office, with referral to a 
registered dietitian mentioned for complex cases.
    We want to underscore the need for updates to Medicare that 
keep pace with the current state of knowledge and best 
practices, including nutrition care. Older Americans want to be 
as healthy and independent as possible. Nutrition and fitness 
within individual limits can contribute to successful aging, 
but more can and must be done to make basic nutrition services 
available to every older American.
    I urge you to support programs that provide nutrition 
services for older adults, to enable nutrition research through 
adequate funding, and to support graduate medical education in 
nutrition for residents and fellows in the primary care 
specialties.
    Senator Craig, the public wants this. Our nation needs it. 
The economics of health care mandate it. Nutrition is essential 
to healthy aging.
    Thank you for allowing me to be here today, and I would be 
pleased to answer any questions you might have.
    The Chairman. Well, Jane, thank you very much for that 
valuable testimony. That, as you know, is an area we have 
worked collectively on as it relates to Medicare and Medicare 
reimbursement, to allow nutritional experts to be reimbursed 
for obviously the advice and the programs they develop instead 
of having it screened through a primary care provider, or at 
least to be able to be billed directly for those services and 
that information.
    [The prepared statement of Ms. White follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Linda, in your testimony, you mentioned that 
the senior meals program conducts nutritional screening. Can 
you elaborate on how this program works and what you do with 
the outcome of the information?
    Ms. Netterville. As part of the requirements through the 
Older Americans Act and through the national NAPAS requiring, 
we use the determine check list, which is about ten questions 
which are simple questions and gives us some kind of an idea of 
what appropriate nutrition interventions might be appropriate 
for those individuals. Depending on the staff and skills at 
each of the nutrition programs, it depends on how far we go 
with that information and what we do with that information.
    It does help an individual and nutrition education 
materials that are appropriate that are provided that go along 
with that screening that we do, so an individual knows how many 
fruits and vegetables they should eat and so on.
    The Chairman. So screening includes also, obviously, the 
advice that follows then?
    Ms. Netterville. Right. That is a big part of it.
    The Chairman. Is there then the opportunity to follow up to 
see if down the road some weeks or months that advice is still 
being taken?
    Ms. Netterville. There is the opportunity every time we 
reassess. At an annual reassessment of any of our individuals, 
we follow that same procedure and do a screening so we can see 
changes in health care, in healthy status. It is part of our 
outcomes that we document.
    The Chairman. Thank you.
    Jane, you referred to the disease management hearing that I 
chaired last September. In general, can you elaborate on how 
the private insurance companies currently integrate nutrition 
care into disease management programs?
    Ms. White. Certainly. It is extremely variable from State 
to State. Many of the programs follow national Medicare and 
Medicaid guidelines, and so reinforcing the need for nutrition 
services and paying for services through these programs would 
help to ensure that the private insurers follow suit and 
provide appropriate nutrition services for patients.
    In Tennessee, with TennCare, TennCare does provide chronic 
disease management services and nutrition counseling for 
patients with specific chronic diseases. This has been a big 
boon to the older population in Tennessee.
    The Chairman. What would a state-of-the-art nutrition care 
program look like for the Medicare program?
    Ms. White. I think the state-of-the-art program would have 
to incorporate routine nutrition screening and assessment with 
the caveat that appropriate intervention be provided, and this 
intervention might include referral to social services and 
programs such as Meals on Wheels congregate feeding sites, et 
cetera. It would be a review of prescription drugs, because, 
you know, many drugs, such as the ACE inhibitors and beta 
blockers and diuretics are very dependent on a low-sodium 
intake for efficacy. So, again, advice related to diet and 
exercise in terms of chronic disease management.
    So I think it is two components, nutrition assessment and 
then appropriate nutrition intervention, and, of course, 
reimbursement for services provided.
    The Chairman. Thank you. Senator Breaux.
    Senator Breaux. Thank you, Mr. Chairman. I thank both of 
our witnesses. It is clear that diet and exercise together play 
an incredibly important role in the aging process and 
guaranteeing that people live, again, not just longer lives, 
but better lives and less costly in terms of the medical care 
they need, particularly in their last months of life. Also, 
obviously, it brings about a quality of life that is a big 
improvement, so they both go together. If you have a great 
exercise program and horrible nutrition, you are not going to 
get the job done. If you have great nutrition and no exercise, 
you are not going to get the job done. So the two are very 
directly interrelated and very necessary.
    The Meals on Wheels program provides so much in terms of 
meals and nutritional programs to help seniors. It is a 
wonderful program. I have delivered them on numerous occasions 
and you see the joy they bring. It is also a point of social 
contact for many of the people and a connection with the 
outside world that many of them might not have. It is hard to 
believe that may be the only person that visits that senior 
sometimes is the person delivering the Meals on Wheels. So in 
addition to delivering the nutritional food, they also deliver 
friendship and a contact with that senior which is incredibly 
important.
    I get, Ms. White, from your testimony that you would 
support that the Medicare program has as one of its 
reimbursable things that are covered, what, nutrition?
    Ms. White. Yes. Medicare covers currently treatment for 
diabetes and renal disease, but we really need to expand 
coverage certainly to include the cardiovascular diseases and 
other diseases where there is a clear indication that nutrition 
care and nutrition intervention work improve quality of life, 
and lower health care costs.
    Senator Breaux. Would you know whether private health plans 
in the country that are not for Medicare individuals have that 
type of provision?
    Ms. White. It is very variable from State to State. Some of 
the private plans do cover nutrition intervention. Some of the 
State programs cover nutrition intervention. But it is not 
universal across our health care system and we really need to 
institute these services for all Americans.
    Senator Breaux. Does Medicaid cover it, do you know? Some 
States maybe and some States not?
    Ms. White. Some States. Maybe TennCare does, but other 
States not. So again, we need to institute early intervention 
for the Medicaid population, and continued intervention for our 
seniors because we know that nutrition and physical fitness 
implemented at any age improve health.
    Senator Breaux. Do you have any kind of a ballpark estimate 
of how much including this type of service under Medicare would 
cost?
    Ms. White. I don't have the specific figures, but it was 
included in the Institute of Medicine report on the benefits of 
nutrition care for older Americans. Again, it would depend on 
how often the services are prescribed, because for chronic 
disease management, we really don't diagnose disease. It is up 
to the referring primary care provider to diagnose a problem 
and refer. So again, it would depend on how many of our 
physician colleagues were involved in screening and assessment, 
and then how many of our older Americans recognize that this 
benefit is available and choose to avail themselves of the 
services.
    But certainly in the long run, as I mentioned with the 
figures on hypertension and diabetes, we have similar cost 
saving estimates for the dislipidemias, osteoporosis. The funds 
that you would expend to provide nutrition services would be 
more than covered by the cost savings in medications, in 
hospital admissions, readmissions, length of stay, and so 
forth.
    Senator Breaux. Well, unfortunately, the way we score 
things in Washington, we don't consider the positive effects. 
We only consider the expenditures of how much it costs. I think 
that is patently unrealistic. I mean, obviously, if you have 
better preventative care, you are going to reduce the cost in 
the long term, but the only thing we look at is the up-front 
costs, which is one of the problems.
    I think that we have a Medicare program that today spends 
more money than we take in, and just as I said, ``Unless we 
reform the program, I am going to strongly resist adding things 
to a program which is already financially in very serious 
trouble, and with the 77 million baby-boomers getting ready to 
come eligible for the Medicare benefits, we cannot add benefits 
without reforming the system and bringing it into the 21st 
century.''
    The micromanagement of health care in this country for 
seniors is unlike any other health program that I have been 
able to find anywhere in this country and we really have to 
reform it as well as allow for new and innovative ideas. We 
shouldn't have to come to Congress and ask that this type of 
process be covered. It should be covered because it is the 
right thing to do in the private world.
    So I thank you for your suggestions and for the good work 
that Meals on Wheels does. Congratulations and continue the 
good work.
    The Chairman. To both of you, thank you very much. I agree 
with John. Our difficulty without reforming is to add more to 
an already overburdened cost in a system that does provide 
critical care access or care access that is so critical. But at 
the same time, we are also recognizing now in the heightened 
awareness of nutrition and exercise, and I think there is a 
heightened awareness that we shouldn't allow the doctors, or if 
you will, the primary care practitioner to be the sole screener 
of that service and I think that is a concern that we all have.
    I thank this panel. I thank both of you very much for being 
here today.
    The Chairman. I understand our first/last panelist has 
arrived. Would you please come forward? Lynn Swann, let me 
thank you for being here today, and most importantly, let me 
thank you for being the Chairman of the President's Council on 
Physical Fitness and Sports.
    I must tell you that probably everyone in this audience 
knows about you and your marvelous athletic career and record, 
now being in the Hall of Fame, of course, being that marvelous 
wide receiver for the Pittsburgh Steelers. I have a former son-
in-law--you know how that can happen on occasion.
    Mr. Swann. Yes, I do, sir.
    The Chairman. Who is from Pittsburgh who would give his eye 
teeth to be in the audience today and to meet you. He is also a 
father of a marvelous grandchild, so he is still a very close 
personal friend of mine and will always be. He is a delightful 
gentleman.
    But as an Idahoan, I never grew up with pro ball and I 
never realized how addictive it is until I came to Washington, 
and then I really didn't realize how addictive it was until I 
had in my family a Pittsburgh Steeler fan. It is obsessive in 
that crowd. [Laughter.]
    But probably it is because of the marvelous game that you 
played and obviously the record you delivered and the support 
you built with your fans throughout the years, so we thank you 
so much for being here.
    But now we thank you for heading up the President's Council 
on Physical Fitness and Sports. Senator Breaux and I have 
mentioned, our growing concern about the absence of physical 
activity in our population and now we have what some would term 
an epidemic of obesity in our society that is of great concern 
and brings on the kinds of chronic illnesses that continue to 
cost this society a great deal of money and cost the individual 
a great deal of life, and so, clearly, physical fitness is 
important.
    We thank you for being here. Please proceed with your 
testimony.

 STATEMENT OF LYNN C. SWANN, CHAIRMAN, PRESIDENT'S COUNCIL ON 
           PHYSICAL FITNESS AND SPORTS, SEWICKLEY, PA

    Mr. Swann. Senator Craig, thank you very much, Senator 
Breaux. Thank you for holding this hearing.
    Indeed, Senator Craig, there are some obsessions worth 
having, and for all those Pittsburgh Steeler fans, I understand 
how they feel about their obsessions.
    The Chairman. You have got it.
    Mr. Swann. But certainly an obsession of mine is also being 
fit and maintaining a great quality of life.
    You have the statement that we prepared obviously for this 
day and I don't want to go over that word for word. But 
certainly, we have to set better examples for young people in 
America and our elderly in terms of what we expect and what 
they can do.
    The President of the United States believes in this and he 
is physically fit. The Secretary of Health and Human Services, 
Tommy Thompson, has lost 15 pounds since he took that office in 
an effort to walk the walk and not just talk the talk, and we 
all have to do----
    The Chairman. It has nothing to do with the stress of the 
job? [Laughter.]
    Mr. Swann. Well, his level of physical fitness probably 
allows him to deal with that stress in a better way.
    We have to look at our aging population, and sometimes we 
have to ask a question before we get to the answer in terms of 
being able to help them and the question is, Why are our 
elderly people in such a poor state of physical health? For 
many reasons, one of which is because for many of our older 
citizens, they never have worked out. It was not a part of 
their lifestyle.
    We have shown that a healthier lifestyle is far more 
important than we used to think of it. It is not just a matter 
of running around and trying to look good in a bathing suit in 
the summertime. It is not a matter of trying to fit into that 
tuxedo you bought 10 or 15 years ago for a special event. It 
means a higher quality of life.
    Our senior citizens can have a higher quality of life even 
if they have never worked out before, and so they can start 
now. It is never too late to start working out and you can 
derive the benefits.
    There are more than, I think the number is about 300,000 
hip injuries to senior citizens a year, and unfortunately for 
our senior citizens who are in poor health, that one injury can 
also lead to death. A lot of us like to think that weight loss 
is an important thing, is a positive sign. But when the elderly 
start to lose weight rapidly and for no apparent reason, it is 
a very poor sign that they may never recover.
    If an older person is more physically fit, their bone 
density is going to be stronger. Their muscles are going to be 
stronger. Their reactions are going to be stronger. So in an 
inadvertent fall, a hand can go down that prevents that fall 
from being a broken hip and prevents that particular injury 
that could lead to their death, to mortality.
    So we can start our elderly on programs that give them 
great benefits today, but I think it is equally important that 
while we attack that front, we also attack a larger front in 
terms of our children and our adults. The President's Council 
on Physical Fitness and Sports has an adult lifestyle program 
that we have enacted this year that is different than the 
Challenge program for the children that we have had for many, 
many decades and we are trying to encourage adults and families 
and senior citizens to work out to derive all the health 
benefits of good, balanced physical fitness.
    We are not asking people to become professional athletes. I 
am not asking that everybody go out and try to run the marathon 
or become a triathlete or become a part of the extreme sports 
that we have in our society today, but that we do a little bit 
of something. Thirty minutes a day, moderate exercise, can 
derive all the benefits for our senior citizens. We have over 
60 million people who don't really work out at all, don't do 
anything. Ten minutes a day of moderate exercise, they can 
derive those benefits.
    What is the cost of that? Senator Breaux, you had mentioned 
beforehand that the expectation of putting a lot of money up 
front is not warranted. You can't expect to have those kinds of 
outlays of cash. But we are spending over $250 billion a year--
$250 billion--on obesity-related diseases that are preventable. 
Diabetes are preventable. Where will we spend that $250 billion 
if we didn't have to spend it there, and wouldn't we need to 
get that $250 billion back into other parts of our economy, to 
other areas? We need people just to be more active.
    We are instituting sometime this year, late spring, early 
summer, a new President's Challenge website that will be able 
to track citizens for the rest of their lives, to give them 
information they need to be healthier and to stay fit--young 
kids, adults, senior citizens. It will track them and give them 
the kind of information they need to maintain or to gain an 
active physical lifestyle so they can derive those benefits, 
and that cost is minimal.
    We just need to get people to be active and to start doing 
something, and there are many ways we can get that going, but 
the key here is to take that one step, and then the next step 
and the next step.
    So I am sure, Senator Breaux and Senator Craig, with your 
help and your emphasis on this problem, we as a nation will 
continue to move forward and get stronger. Thank you.
    The Chairman. Lynn, thank you very much for your testimony 
and your commitment and your involvement.
    [The prepared statement of Mr. Swann follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. In what ways is the President's Council 
promoting the President's Challenge? You mentioned the website. 
Beyond that, is there an incorporated effort?
    Mr. Swann. There are several partnerships that we have with 
various companies in corporate America to get people in the 
workplace to continue to work out and derive those benefits. We 
have programs in place with the YMCA to engage people to 
continue to work out and tracking them. We certainly want to 
get them all signed up on our website, but to motivate them. I 
think it is important to motivate, to incent, and to encourage 
people to work out in a variety of ways.
    The President's Council is about 20 members strong and we 
have been out speaking to groups, large groups across this 
country. We will continue to do that and continue to seek 
forums to express the President's position on a healthier us, 
that is, 30 minutes of exercise every day, 5 days a week. It is 
a balanced diet, getting the proper testing to see what our 
state and physical condition really is and make sure we are 
medically OK, and to avoid risky behavior, things like if you 
don't smoke, don't start, and if you do, don't smoke around 
children, wear your seat belt, wear a bicycle helmet, those 
kinds of things.
    The Chairman. In addition to holding this hearing, what can 
the Special Committee on Aging do to help you and the 
President's Council on Physical Fitness and Sports promote 
physical fitness for seniors, because you said something in 
your opening comments that really is a reality to me in talking 
with older Americans about exercising and they will say, 
``Well, I never have.'' Why should I start? I never did play 
any sports. I never have done anything of that nature. I think 
there is quite a bit of truth to that. When you talk about 
these 60 million out there who are not, part of it is because 
they never have.
    Mr. Swann. Correct. It is very much like that student that 
was in your school probably, that guy, that girl that never had 
to really open the book very long and they just kind of got it.
    The Chairman. Oh, I really resented them.
    Mr. Swann. Oh, didn't you? You resented them. They were so 
bright and so smart, they just got it like that, As and Bs just 
up and down the report card. [Laughter.]
    But as soon as they went to college, they found themselves 
in a bit of trouble. It didn't come that easy and they couldn't 
compete. Why? Because they didn't have the tools. They didn't 
know how to study. When the other bright minds came to that 
university, they were bright and they had the tools. They did 
know how to study and so they competed better. Many of those 
bright kids got lost and didn't have the results they were 
looking for.
    There is also that guy and that girl you grew up with, they 
could eat anything in the world and they never gained an ounce 
and they looked great in their clothes, and they ate the 
desserts, they ate the pies, they ate everything they wanted 
to, never gained a pound. Then all of a sudden, 35 and 40 hit 
and the belly started getting out there. There was one guy, if 
you asked him for $5, he could reach into his wallet this way 
because it just grew that big out the other end. They never had 
the tools to start working out. They never understood it.
    We can give senior citizens those tools. As a matter of 
fact, later this week, we are meeting with the American 
Association of Retired Persons to talk about a plan to get more 
senior citizens activated and working out, light weights, 
moderate exercise to derive the benefits. They can increase 
their muscle mass at age 60 and they can gain more flexibility. 
They can increase the density of their bones so they are not 
quite as frail. They can derive all the benefits of moderate 
exercise.
    Again, we are not talking about anything substantial. It 
could be 10 minutes here, 10 minutes there, another 10 minutes 
vacuuming, gardening, walking their grandchildren, walking the 
dog, exercising with other senior citizens, and that is enough 
to derive the benefits.
    The Chairman. My last question to you, Lynn, would be--and 
this is going to put you on the spot, but I suspect you can 
handle it well. You have been an athlete all your life. How 
often do you exercise?
    Mr. Swann. I exercise about 5 to 7 days a week.
    The Chairman. What is your routine?
    Mr. Swann. Just last weekend, I celebrated my 51st 
birthday, and I get up at about 5 in the morning because that 
is my routine. I will do anywhere from 45 minutes to an hour of 
cardio, treadmill, bicycle, elliptical machine. I will do a 
minimum of 300 sit-ups a day, and then 3 or 4 days a week, I 
will lift weights for about an hour.
    The Chairman. You can stop. [Laughter.]
    Mr. Swann. But it is important, sir. Certainly, I am not 
asking people to do what I do, but I am asking America to be a 
little more fit. I am asking all the organizations who need to 
have America be more fit because their dollars and cents can be 
spent elsewhere. The American Diabetes Association, the 
American Heart Association, all of these organizations are 
doing great work and research to find cures and prevent 
diseases and to prevent death.
    One of the things we need all of us to do is be more 
proactive. If they get their constituents to lose weight, if 
they promote a healthier lifestyle and moderate exercise, and 
it costs nothing to do that, then they take people off the 
rolls of diabetics and obese people with other diseases and we 
get some of that money back looking for a cure.
    So we need everybody from all parts of our society to 
encourage people to work out and derive those benefits. If we 
get that, if we become much more proactive on the preventative 
side, then that $250 billion a year we spend can go to other 
areas where we certainly need that money.
    The Chairman. Lynn, thank you. You are a wonderful example 
and it is very obvious why the President has selected you to 
Chair the Council.
    Let me turn to my colleague, Senator Breaux. John?
    Senator Breaux. Thank you very much, Mr. Swann, Lynn. Thank 
you for your participation and your involvement.
    I will just ask, if I followed your suggestion, would I be 
able to play like Michael Jordan? [Laughter.]
    Who is a real example, I mean, among others, but an example 
of what you can do later in life at the very top of an athletic 
profession. It is just absolutely amazing.
    I do think, sincerely, that what you are doing is very 
important, because you are such a recognizable person in the 
athletic world. To take this position on behalf of the 
administration and be able to use your fame and position to 
encourage others to do the same thing is very, very important. 
You are giving something back.
    Although I hate to admit this, there were some in my 
office, and I would say that it was some of the females in my 
office that thought that Lynn Swann was a female. [Laughter.]
    They have been banished for a long time. [Laughter.]
    The Chairman. You should bring them down and introduce 
them.
    Senator Breaux. I think they would like to meet him. 
[Laughter.]
    Mr. Swann. Senator Breaux, I hate to tell you this, but my 
mother was hoping I would be a girl, too. [Laughter.]
    Senator Breaux. I thank you just for that involvement, 
because your being where you are is really giving back to this 
country and it is just wonderful to see you doing this.
    Maybe everybody in America needs to do more in this area, 
but two populations where it causes the greatest degree of 
problems is with the young and the elderly. I mean, we have so 
many of our young people who are tied to the television and 
tied to the Internet and who don't do what I think we did 
growing up. We didn't really have access to television like 
that and certainly didn't have the Internet, so we had sports. 
Boys and girls both were out doing things. It seems like it is 
a huge problem now.
    Then there is an attitudinal problem, I think, among our 
elderly. My father was an outstanding athlete when he was 
young, but when he hit a certain age, people in his generation 
said, ``That is it, I can't do anything anymore, and they just 
retired to the lounge chair and to the television.''
    Those are two distinct challenges. How do we get to the 
young people to tell them to get off their backsides and get 
out and do something, and how do we encourage the somewhat 
elderly in our society that they, too, need to still be doing 
this because of what it means not only to themselves, but also 
to their children and their grandchildren who are going to have 
to participate in helping to take care of them? I mean, how do 
we do that?
    That is the real challenge, and I think the President's 
Council on Physical Fitness hopefully can come up with some 
ways to target that. Certainly, your being a spokesman will 
help. Do you have any thoughts about how we get to those two 
distinct groups, the young people and the elderly?
    Mr. Swann. Certainly through our school systems. We mail 
out, we provide for the school systems the information on the 
President's Challenge, a program by where they can earn points 
and awards through the Presidential Fitness Program. Any 
teacher can put this program in place. They don't have to be a 
physical fitness teacher or a physical education teacher to 
enact this program and plan. So we mail out information and 
make it available to children, to schools all over America. Our 
corporate partners make it available to many more children, to 
the Boys and Girls Clubs, through Big Brothers and Big Sisters 
of America, and through the YMCAs, YWCAs, so that the kids can 
have access to these programs.
    We continue to try and reach adults in other sections of 
our society to reach adults and senior citizens to make these 
programs available to them.
    Senator Breaux. But aren't we finding, for whatever reason, 
that more and more schools now are not requiring physical 
education as part of their curriculum? It seems like the first 
thing they drop is PE, physical education, because it is sort 
of assumed it is sort of an extra, when now we know today it is 
much more a part of an educational process. It is just as 
important to teach people to exercise and save their lives as 
it is how to add in a math class. One is not more important, I 
think they are pretty much even. But aren't we finding that 
more and more schools are not even requiring physical education 
any more?
    Mr. Swann. That has been the case for quite some time. Now 
about 10 years ago, the Chairman of the President's Council on 
Physical Fitness and Sports was a gentleman by the name of 
Arnold Schwarzenegger.
    Senator Breaux. I remember the name.
    Mr. Swann. Arnold spent a great deal of time in his tenure 
trying to reach out to Governors of all 50 States. As a matter 
of fact, my research tells me he visited every Governor at that 
time to encourage them to have physical education as a mandated 
portion of their educational system. At the time, there was 
only one State, the State of Illinois, that mandated physical 
education as a part of their educational program.
    Senator Breaux. How many do you think today?
    Mr. Swann. Today, Illinois is still the only State that 
mandates physical education.
    Senator Breaux. Unbelievable.
    Mr. Swann. It is the only one. The State of California has 
failed a physical education test for its young people recently.
    Senator Breaux. I think that you have highlighted in this 
something that--I mean, if our schools who educate our children 
do not recognize that physical education is an important part 
of the learning process, then we have a challenge that is 
almost insurmountable.
    Mr. Swann. It is a challenge, not insurmountable, I 
believe, Senator Breaux. I believe if we just kind of dig our 
heels in, we can fight that trend toward obesity.
    Senator Breaux. Well, insurmountable is too tough a word. 
Nothing is insurmountable. But, I mean, I tell you, to have to 
do it without the schools' participation is an unnecessary 
challenge that we shouldn't have to face. Schools should 
recognize that physical education is part of the learning 
process and a very important part of it.
    Mr. Swann. We certainly need that balance, and we need to 
reach our children to get them more active. But part of that, I 
also believe, is because we have been so extraordinary 
successful as a nation, our technology. We look at our 
workforce. We don't necessarily need as physical a workforce as 
we had 10 years ago, or as we had 20 years ago. We have a 
society that has grown up with a great deal of convenience. I 
mean, you don't even have to turn the handle to open the can. 
You just press the button.
    Senator Breaux. But that is part of the problem. Not to be 
argumentative, but we have become such a high-tech society that 
things that used to require a degree of physical activity and 
qualification to operate a particular piece of machinery or to 
perform a function is no longer necessary. You can sit behind a 
desk and push a button, or you can get on a computer and get 
the job done. So there is a lot less physical activity involved 
in what we used to have. You used to have to be in better shape 
in order to perform certain work tasks.
    So I would argue that that is an indication that physical 
exercise not connected to your work activities is even more 
important. We are going to have a bunch of high-tech people who 
are as smart as hell but are obese and fat and sick with 
diabetes and it is going to cost us, as the lady said, $250 
billion a year. They are going to be really smart, but they are 
going to be so fat and obese and sick that they create a 
problem for society that outweighs the ability to be a high-
tech society.
    Mr. Swann. In my effort to reach Washington, DC, this 
morning, my plane was delayed a bit and I ended up landing in 
Baltimore. I was facilitated in getting here by Representative 
English and Tim Murphy, and Tim, I have known for many, many 
years in Pennsylvania, and we were having this conversation and 
we were discussing physical fitness and how you get the time to 
exercise in a busy schedule, the busy schedule of a 
Congressman, of a Senator, of any individual, and we came to 
one of several conclusions.
    One is that it has to be a priority, and as a priority, we 
have to schedule it. I would prefer to sleep in. I would prefer 
not to get up at 4:30 or 5 in the morning. But as my day 
unfolds, I know that I may not get the opportunity to get that 
workout in, and I will be sitting in my office and I will be 
reading material getting ready for the next broadcast or the 
next project. I will be on the Internet. I will be on the 
computer. I will be one of those people sitting there, not 
moving around. So I get up at 5 in the morning to schedule that 
activity.
    Senator Breaux. Well, I don't----
    Mr. Swann. If it is important to us, we need to figure out 
how to schedule it.
    Senator Breaux. I don't know how to do that, Mr. Chairman. 
I mean, I don't like to mandate to States what they should do. 
I would be last to mandate what the curriculum should be in 
schools. But we as a nation have an invested financial interest 
in this. When they are not teaching young people how to be part 
of an organized exercise program, it is costing all of society 
a huge amount of money. The fact that the schools have moved 
away from this is something that--they did it in many cases 
because they don't have the money, so they figure they cut the 
least important program in the curriculum and it has always 
been physical education, which I think is a huge mistake.
    I don't want to belabor it, but I asked also about seniors. 
Do you have any thoughts about how do we get people who think 
it is time to retire to the rocking chair to also do more than 
just rock away their lives?
    Mr. Swann. I think if we can engage our senior citizens. I 
think certainly the conversations we are going to have with the 
AARP this week are going to give us some help in enlightening 
us in terms of how we can approach that. But I do believe we 
need to engage them.
    As a matter of fact, I just met recently a doctor from the 
University of Pittsburgh who was headed down to Miami for a 
conference and her mother had passed away several years ago. 
Her father was at home in Massachusetts and he had never lived 
anywhere other than Massachusetts, and she convinced him to 
move to Pittsburgh with she and her new husband. He came there 
and he lives in an area called Squirrel Hill and he spends his 
time at the community center with other senior citizens and it 
has opened up an entirely new world for him, the exercise 
programs with other senior citizens. He is taking Tai Chi, and, 
as a matter of fact, tried to pull a couple of moves on his 
daughter so he could take her down if it was necessary. 
[Laughter.]
    It is not just the physical benefits that seniors get when 
they engage in these programs, but it is also a psychological 
benefit. They feel better. Their attitude is better. They have 
an air of confidence.
    So I think if we can engage them, show them through a 
variety of means that the quality of their life is going to 
improve, that they will be able to see that little bright light 
in the eyes of their grandchildren for many more years if they 
take a little bit of time, it is well worth it and we can make 
that effort.
    Senator Breaux. See if you could help, I mean, use the 
office that you are in, that you head, to really see what we 
can do to maybe help promote the National Senior Games 
Association. I mean, it has struggled. It has sort of been the 
stepchild of athletic endeavors in this country and I think 
that it is the only thing that really encourages seniors to be 
involved on a national level in something that emphasizes 
physical fitness. I have tried, and I would love to join with 
you and others to try and find out what we can do to encourage 
that as an endeavor that continues. They have had really tough 
problems in getting people to recognize this as a commercial 
entity.
    I mean, if I was an advertiser, I would say, look, you are 
talking about a group of people who are some of the largest 
purchasers in this country that are seniors, and to try and 
find ways to get the private sector involved. It shouldn't be 
the government doing it, but we should be involved in that. So 
I look forward maybe if you have any thoughts on that.
    Again, congratulations. I know you couldn't land here 
because of the snow storm and you went to Baltimore, and the 
worst thing possible, you had to hitch a ride with two 
politicians. [Laughter.]
    Thank you for being here.
    Mr. Swann. It was not the worst thing. I actually enjoyed 
the ride. But I certainly look forward to working with you, 
Senator Breaux. It would be an honor and a pleasure to work 
with you on the Senior Games, to encourage and to motivate our 
senior citizens to be more active and give them the goals. We 
do need to give everyone goals to reach for and to motivate 
them and it would be a pleasure personally and through the 
office to be able to help you with that project.
    The Chairman. Lynn, thank you very much for your time and 
your struggle in getting here today to be with us. We thought 
it was very important that we make an effort to highlight 
senior nutrition and senior physical fitness by example and 
certainly by building a record for our colleagues and for a 
broader public awareness.
    The evidence is there. It is just irrefutable that a 
healthy lifestyle, certainly exercise and reasonable nutrition 
extend lifestyle. Senator Breaux and I had hearings here 
yesterday, and when we look at the demographics of aging today, 
even under current demographics, simply because we are making 
people healthier longer, it is a task at hand that requires us 
to reform institutions of government, and I would like to make 
them even healthier.
    But to see folks living well into their 90's, being 
physically fit and mentally active is absolutely wonderful, not 
only for themselves, but for their families. You have played 
and are playing a role in that kind of information education 
and we thank you very much for it and thank you for coming to 
the committee.
    Mr. Swann. Senator, thank you very much.
    The Chairman. The committee will stand adjourned.
    [Whereupon, at 11:43 a.m., the committee was adjourned.]

                                   - 

</pre></body></html>
